Clerk

Supreme Court of the United States

1 First Street, NE
Washington, DC 20002

February 13, 2020

Re: Adkins and Maxim HealthCare Services, Inc. v. Collens, No. 19-646

Dear Clerk:

Pursuant to Supreme Court Rule 33.1(h), I certify that the Brief in Opposition to the
Petition for Writ of Certiorari contains 7,643 words, excluding the parts of the document

exempted by Supreme Court Rule 33.1(d).

Very truly yours,

a Oras

Susan Orlansky

Of counsel to Reeves Amodifo LLC
500 L Street, Suite 300
Anchorage, AK 99501

(907) 222-7117
susano@reevesamodio.co:

Counsel for Respondent

I certify that I served a copy of the above letter by first class mail and by email on counsel

for the Petitioner as follows:

Gregory Fisher

Davis Wright Tremaine LLP
188 West Northern Lights Blvd.
Suite 1100

Anchorage, AK 99503
gregoryfisher@dwt.com

By: nH Diews

Date:

        
